U.S. Department of Labor	                    Office of Inspector General
                                             Washington, DC. 20210




      June 19, 2012

      MEMORANDUM FOR:                 T. MICHAEL KERR
                                      Chief Information Officer




      FROM:           	               ELLIOT P. LEWIS
                                      Assistant Inspector General for Audit

      SUBJECT: 	                      Alert Memorandum: DOL Needs to Immediately Take Corrective
                                      Action to Safeguard BLS Information
                                      Report Number: 23-12-006-07-001

      On March 1, 2012, we alerted you to a matter related to the effectiveness of the DOL’s electronic
      media sanitization practices. We identified information technology (IT) equipment that was
      ready for imminent disposal containing government business information and personal
      documents. In addition, we identified improper handling of equipment during the sanitization
      process and inaccurate recording of the equipment in the property management records. (Report
      No. 23-12-005-07-001, DOL Needs to Immediately Take Corrective Action to Safeguard
      Information Technology Equipment)

      The purpose of this memorandum is to alert you to another matter related to the effectiveness of
      the Department’s electronic media sanitization practices that requires immediate corrective
      action. We identified Bureau of Labor Statistics (BLS) computers that were ready for imminent
      disposal containing protected information.

      The BLS is responsible for protecting two types of confidential information: respondent
      identifiable information and pre-release information. Respondent identifiable information is
      collected from businesses and households by the BLS under a pledge of confidentiality and is
      protected from unauthorized disclosure and use by the Confidential Information Protection and
      Statistical Efficiency Act (CIPSEA) of 2002. This information is then aggregated in a manner
      which allows its release to the public through a statistical report while ensuring respondent
      identities are not disclosed. Prior to its release to the public, the aggregated statistical report is
      considered pre-release information. Also, personally identifiable information (PII) must be
      protected under the requirements of OMB Memorandum M-06-15, “Safeguarding Personally
      Identifiable Information.”




                                Working for America’s Workforce
                                                 - 2 -



On March 22, 2012, the Department signed a memorandum granting approval for the BLS to be
responsible for the direct disposal of the BLS IT equipment. It is noted in the memorandum that
the BLS will use Departmental forms and meet Departmental requirements, including
requirements for the sanitization of IT equipment.

We inspected 60 computers that were ready for imminent disposal, consisting of desktops and
laptops, and identified the following major concerns:

   		 Three hard drives were not sanitized and contained sensitive and statistical information.
       The hard drives have been identified to belong to two senior economic analysts and one
       Human Resources staff. Initial analysis of the information contained on these hard drives
       is provided in the Attachment.

   		 The hard drives for three computers were missing at the time of OIG testing. BLS had
       lost accountability over these hard drives and was unable to locate them.

BLS procedures required its Office of Technology and Survey Processing, Division of Network
and Information Assurance to perform an audit to mitigate the risk that the IT equipment was not
properly sanitized. However, BLS’ sanitization verification procedure did not identify the issues
noted above.

Based on the results of our limited testing at this point in our audit, it is evident that the BLS is
not ensuring sanitization of IT equipment prior to disposal. As a result, the BLS is at risk of
unauthorized disclosure of sensitive information, including information covered under the
CIPSEA and personally identifiable information. Such unauthorized disclosure could result in
BLS staff being subject to criminal fines and penalties for knowingly and willfully mishandling
confidential information.

OIG’s previous alert recommended that the Department immediately stop disposal of any IT
equipment Department-wide until it could ensure that 100 percent of the equipment was being
properly sanitized. In response, the Department temporarily stopped all outgoing shipments of IT
equipment from the Frances Perkins Building and re-instructed personnel on procedures on
movement of IT equipment to ensure accountability of such equipment. However, the results of
our testing at the BLS indicate proper sanitization of IT equipment remains a concern not just at
the Frances Perkins Building, but at all Department locations.

We recommend that the CIO:

   1.		 Undertake and document a full Department-wide review of all sanitization policies and
        procedures, including accountability for IT equipment disposals.
   2.		 Immediately stop the BLS from disposing of computers.
   3.		 Rescind the BLS IT Equipment Disposal Authority until the BLS can ensure that 100
        percent of the equipment has been properly sanitized.
   4.		 Ensure BLS establishes accountability for all its IT equipment.
                                                 - 3 -



      5.		 Instruct BLS to report the 3 missing hard drives to the OCIO as a computer security
           incident for further investigation.

The results included in this interim report are based on our work to date. Fieldwork is continuing
and we will provide overall results when our audit work is complete. Please respond to this
report within 3 days with a corrective action plan. Please contact Keith Galayda, Acting Deputy
Assistant Inspector General of Audit, at (202) 693-5259, if you have any questions.

Attachment


cc:      	Edward Hugler
         Daniel Lacey
                                                                                Attachment




BLS Hard Drives Findings – Unsanitized

Asset Tag: 226295 

(Belongs to Senior Economist, Office of Productivity and Technology)


1 	 BLS statistical documents – spreadsheets and raw data files
2 	 Hundreds of user's personal pictures
3 	 User's Citibank Government Travel Card Application Form with PII - name,
    SSN, DOB, address, email address and phone number
4 	 User's W-2 form in txt format
5 	 IP address of computer

Asset Tag: 27064 

(Belongs to Program Coordinator, Office of Productivity and Technology) 

1 	 Listing of Foreign Dignitaries Information - Russian Official's Invitation Letter
    Listing included Russian officials’ PII, including names, DOB and position title
    held in Russian Government
2 	 IP address of computer

Asset Tag: 225377 

(Belongs to Security Assistant, DHROM) 

1 	 File containing 84 individuals’ information – identified as PII of employees who
    were separated from DOL - name, DOB, separation date and SSN.
2 	 File containing 105 individuals’ information – identified as PII of both current
    and separated DOL employees – name and SSN.
3 	 EEOC form in txt format - SSN of computer's user
4 	 IP address of computer
